Appendix A
Nebraska Supreme Court Opinion

Dated April 17, 2020
State v. Schroeder, 305 Neb. 527, 941 N.W.2d 445 (2020),
Order Affirming Judgment of District Court for Johnson County, Nebraska

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d 445

305 Neb. 527

West Headnotes (54)

Supreme Court of Nebraska.
STATE of Nebraska, appellee,

[1] Criminal Law <^> Particular offeuses and
prosecutions

V.

Patrick W. SCHROEDER, appellant.

In a capital sentencing proceeding, the Supreme
Court conducts an independent review of the

No. 8-18-582.
1•

Filed April iy, 2020
Synopsis
Background: Defendant pled guilty in the District Court,
Johnson County, Vicky L. Johnson, J., to first-degi'ee murder

record to determine if the evidence is sufficient
to support imposition of the death penalty.

[2] Criminal Law ©==> Construction in favor of
government, state, or prosecution

of victim who was his talkative cellmate who annoyed him,

Criminal Law (@sa Particular offenses and

and was sentenced to death. Defendant appealed.

prosecutions

When reviewing the sufficiency of the evidence
to sustain the trier of fact's finding of a death
Holdings: The Supreme Court, Funke, J., held that:
[1] State could introduce evidence to rebut unpresented death
penalty mitigating evidence;

penalty aggravating circumstance, the relevant

question for the Supreme Court is whether, after
viewing the evidence in the light most favorable
to the State, any rational trier of fact could have
found tlie essential elements of the aggravating

[2] sentencing panel properly considered and weighed death

ckcumstance beyond a reasonable doubt.

penalty mitigating evidence from presentence investigation
report;

[3] Sentencing and Punishment ©^ Scope of
[3] statutory mitigator of unusual pressures or influences or

review

domination of another person did not apply;

The sentencing panel's determination of the
existence or nonexistence of a death penalty

[4] statutory mitigator of extreme mental or emotional

mitigating cu-cumstance is subject to de novo

disturbance did not apply;

review by Supreme Court.

[5] trial ccmrt did not have duty to request presentence
investigation report to include specific incarceration records
for mitigation purposes;
[6] sufficient safeguards existed to prevent arbitrary result
upon defendants waiver of counsel and refusal to provide

mitigating evidence or proportionality evidence or argument;
and

[4] Sentencing and Punishment "^ Scope of
review
In reviewing a sentence of death, the Supreme
Court conducts a de novo review of the

record to determine whether the aggravating and
mitigating circumstances support the imposition
of the death penalty.

[7] death sentence was not disproportionate.
[5] Criminal Law ©- Necessity and scope of
Affmned.

proof
In proceedings where the Nebraska Evidence
Rules apply, the admissibility of evidence is

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
controlled by the Rules, and judicial discretion is
involved only when the Rules make discretion a
factor in determining admissibiHty.

[11] Sentencing and
Punishment @=> Admissibility m General
Evidence may be presented as to any matter
that the sentencing court deems relevant to the

[6] Criminal Law ^" Constitutional issues in

sentence.

general

The constitutionality of a statute presents a
question of law, wiiicli an appellate court
independently reviews.

[12] Sentencing and Punishment ^=» Reception of
evidence
In a death penalty case, a sentencing panel may

permit the State to present evidence to contradict
[7] Sentencing and Punishment ®"3 Manner and

effect of weighing or considering factors

potential mitigators even though a defendant
failed to present affirmative evidence.

Sentencing and Punishment ^ Murder
The death penalty is imposed for a conviction
for first-degree murder only in those instances
when the aggravating circumstances existing

in connection with the crime outweigh the

[13] Sentencing and Punishment ^ Use and
effect of report
Sentencing and Punishment ^ Evidence in

mitigating circumstances. Neb. Rev. Stat. §

mitigation in general

29-2519.

Sentencing panel properly considered and
weighed death penalty mitigating evidence
fi'om presentence investigation report, despite

[8] Criminal Law ^ Scope of Evidence in
Rebuttal
Rebuttal evidence is confined to new matters first
introduced by the opposing party and limited to
that which explains, disproves, or counteracts the
opposing party's evidence.

argument that panel should have applied
additional nonstatutory mitigating evidence
including State's alleged ulterior motive for
pursuing death penalty and defendant's use
of money elicited from murder of victim
to provide clothes and food for his family,
where presentence investigation report contained

underlying facts that defendant used as support
[9] Sentencing and Punishment ^ Evidence in
mitigation in general

for the nonstatutory mitigators, panel explained

that it considered those facts in determining
sentence, and panel specifically acknowledged

A sentencing panel has the discretion to hear

many of those facts in sentencing order. Neb.

evidence to address potential death penalty

Rev. Stat.§ 29-2521.

mitigating circumstances regardless of whether
the defendant presents evidence on that issue.

Neb. Rev. Stat. § 29-2521(2).

[14] Sentencing and Punishment ^ Sufficiency
Sentencing order in a death penalty case must

[10] Sentencing and Punishment ^ Discretion of
court

specify the factors the sentencing panel relied
upon in reaching its decision and focus on the
individual circumstances of each homicide and

A sentencing court has broad discretion as to

each defendant. Neb. Rev. Stat. §§ 29-2521,

the source and type of evidence and information

29-2522.

which may be used in determining the kind and
extent of the punishment to be imposed.

WRSTLAW © 2020 Thomson Renters. No claim to original U.S. Government Works.

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
had a history of incarceration including his

[15] Sentencing and Punishment ^ Necessity

history within juvenile court system and his

and purpose

current sentence for the prior murder. Neb. Rev.

Federal Constitution does not require the

Stat. § 29-2523 (2)(c).

sentencing judge or Judges to make specific
written findings with regard to nonstatutory
death penalty mitigating factors.

[19]

Sentencing and Punishment <&=» Emotional
distress or disturbance

[16] Sendcncing and Punishment ^ Sufficiency

During the consideration of statutory
death penalty mitigating factors, the mere

Supreme Court will not fault a sentencing

identification of a history of incarceration,

panel for failing to discuss a nonstatutory death

without more, is insufficient to allege unusual

penalty mitigating circumstance that it was not

pressures or influences or establish extreme

specifically asked to consider.

mental or emotional disturbance. Neb. Rev. Stat.

§ 29-2523(2)(c).
[17] Sentencing and Punishment ^=> Compulsion
and duress

[20] Sentencing and Punishment i§^ Provocation

Statutory death penalty mitigating factor of

or participation by victim

murder while acting under unusual pressures or

Victim's facing his chair away from defendant

influences or under the domination of another

in their jail cell upon defendant expressing

person did not apply for murder conviction

annoyance at him and requesting that he turn

arising from defendant's strangulation of victim

chair around was not participation in defendants

who was his talkative unclean celimate who

conduct or consent to Iiis own murder via

annoyed him, where defendant did not request

strangulation, and thus statutoiy death penalty

victim's removal from cell, defendant did not

mitigating factor of a victim's participation

warn officials of potential danger to victim,

or consent did not apply. Neb. Rev. Stat. §

defendant made up his mind to kill victim days

29-2523(2)(f).

before he did so, and defendant made no real
attempts to avoid the result, even having made

the decision to discard a form that inmates used
to communicate with prison staff, which could
have helped avoid the killing. Neb, Rev. Stat. §

29-2523(2)(b).

[21] Sentencing and Punishment ^=> Necessity
When an offender has been convicted of first-

degree murder and waives the right to a
jury determination of an aUeged death penalty
aggravating circumstance, tile sentencing court
must order a presentence investigation of the

[18] Sentencing and Punislnnent €=> Emotional
distress or disturbance

offender and tlie panel must consider a written
report of such investigation in its sentencing

Statutory death penalty mitigating factor of

determination. Neb. Rev. Stat. §§ 29-2261(1),

murder while under the influence of extreme

29-2521(2),

mental or emotional disturbance did not apply
for murder conviction arising from defendant's

sh'angulation of victim who was his talkative
unciean cellmate who annoyed him, even though

the shared cell was intended for a single inmate,
where victim was set for release two weeks after

moving in with defendant, defendant was serving
a life sentence for another murder, and defendant

[22] Sentencing and Punishment ©=> Necessity
Trial court did not have a statutory duty
to request presentence investigation report to
include specific incarceration records from

Department of Correctional Services (DCS),
including records regarding defendant's central

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d 445
monitoring and any medical or mental Iiealth

mitigating evidence during sentencing in a death

records, for use in mitigation during capital

penalty case. U.S. Const. Amend. 6; Neb. Const.

sentencing proceeding. Neb. Rev. Stat. §§

art. 1,§ 11.

29-2261(1), 29-2261(3), 83-178.
[28] Sentencing and
[23] Criminal Law ^ Penalty, potential or actual

Punishment ^ Requirements for Imposition

Criminal Law <?= Critical stages

Because a death sentence is different from any

An accused has a state and federal constitutional

other criminal penalty and no system based on

right to be represented by an attorney in all

human judgment is infallible, the Supreme Court

critical stages of a criminal prosecution which

has taken, and should continue to take. the extra

can lead to a sentence of confinement. U.S.

step to ensure fairness and accuracy with the

Const. Amend. 6; Neb. Const. art. 1, § 11.

imposition of the death penalty.

[24] Criminal Law ^ Capacity and requisites in

[29] Statutes €-a Liberal or strict construction; rule

general

of lenity

A defendant may waive the right to counsel

Penal statutes are to be strictly construed in favor

so long as the waiver is made knowingly,

of the defendant.

voluntarily, and intelligently. U.S. Const.
Amend. 6; Neb. Const. art. 1, § 11.

[30] Sentencing and Punishment ^ Use and
effect of report
[25] Criminal Law ^ In general; right to appear

Sentencing and Punishment <^=» Reception of

pro se

evidence

The same constitutional provisions that provide

Even if die State presents evidence in favor of

a defendant the right to counsel also guarantee

a specific sentence and the defendant declines

the right of the defendant to represent himself or

to present contrary evidence, the sentencing

herself. U.S. Const. Amend. 6; Neb. Const. art.

court receives and must consider independent

1,§11.

information from the presentence investigation
report in a death penalty case. Neb. Rev. Stat. §§

29-2261(1), 29-2521(2).
[26] Criminal Law <S-^ Effect of waiver or
appearing pro se
Right to self-representation encompasses certain

[31] Sentencing and Punishmeut <ga Use and

specific rights of the defendant to have his voice

effect of report

heard, including that tiie pro se defendant must be

Sentencing and Punishment ^> Reception of

allowed to control the organization and content

evidence

of his own defense, U.S. Const. Amend. 6; Neb.
Const. art. 1, § 11.

In a death penalty case, the sentencing panel is
required to review the presentence investigation
report and determine whether it contradicts
tlie State's evidence of aggravating factors

[27] Sentencing and Punishment ^=> Reception of

and whether any mitigating circumstances

evidence

exist) including specifically delineated statutoiy

Control of tlie organization and content of a

mitigators. Neb. Rev. Stat. § 29-2261(1).

defense, as part oftlie right to sclf-representation,

may include a waiver of the right to present

WESTL.AW © 2020 Thomson Reuters. No claim to oi-iginal U.S. Government Works.

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445

[32] Sentencing and Punishment ^ Degree of
proof
The State must prove death penalty aggravating
circumstances beyond a reasonable doubt.

Sentencing and Punishment ^ Sufficiency
Even when a jury determines the existence
of a death penalty aggravating circumstance,

a sentencing panel is required to put in
writing its consideration of whether the
determined aggravating circumstance justifies
the imposition of a sentence of death, whether

[33] Sentencing and Punishment e=> Burden of

mitigating circumstances exist, and whether

proof

a sentence of death would be excessive or

There is no burden of proof with regard to death

disproportionate to penalties imposed in similar

penalty mitigating circumstances.

cases, and this writing must specifically refer
to the aggravating and mitigating circumstances
weighed in the determination of the panel. Neb.

[34] Sentencing and

Rev. StaL § 29-2522.

Punishment ^ Propoi-tionality in general
Once the sentencing panel makes its
determinations about the existence of

[38] Sentencing and Punishment ©=a Proceedings

death penalty aggravating and mitigating

Capital sentencing scheme provides additional

circumstances, the panel is then required to

statutory steps and considerations to ensure

undertake a proportionality review which looks

fairness and accuracy, and these safeguards exist

at whether tlie sentence of death is excessive

regardless of a defendant's strategy at the penalty

or disproportionate to the penalty imposed in

phase, Neb. Rev. Stat. §§ 29"2261(1), 29-2521,

similar cases, considering both the crime and the

29-2521(2), 29-2521.01, 29-2522, 29-2522(3).

defendant. Neb. Rev. Stat. § 29-2522(3).
[39] Sentencing and Punishment ©=s Decision to
[35] Sentencing and

Seek Death Penalty

Punishment ^ Proportionality

Sentencing and Punishment ^ Evidence in

Supreme Court's proportionality review of

mitigation in general

death sentence is not constitutionally mandated,

A defendant cannot "choose" the death penalty.

bul exists by virtue of statute. Neb. Rev.

Stat. §§ 29-2521.01, 29-2521.02, 29-2521.03,
29-2521.04.

[40] Sentencing and
Punishment ^ Determination and
Disposition

[36] Sentencing and
Punishment ^ Proportionality

The sentencing decision, in a death penalty case
rests with the court atone.

Supreme Court's proportionality review of death
sentence spans all previous cases in which
a sentence of death is imposed and is not

dependent on which cases are put forward by
the parties. Neb. Rev. Stat. §§ 29-2521.01,
29-2521.02, 29-2521.03, 29-2521.04..

[41] Criminal Law f©=» Necessity and scope of
proof
Criminal Law (3=> Standard of Effective
Assistance in General

A defendant is entitled to present a defense and is
[37] Sentencing and Punishment @" Necessity
and purpose

guaranteed the right to choose tlie objectives for
that defense, U.S. Const. Amend. 6; Neb. Const.
art. 1,§ 11.

WESTLAW © 2020 Thomson Renters. No ciaim to origina! U,S. Government Works.

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
found to exist approach or exceed the weight
given to the aggravating circumstances. Neb.

[42] Sentencing and Pimishment ©=• Counsel

Rev. Stat.§ 29-2521.01.

Sentencing and Punishment ^ Reception of
evidence
When a defendant waives counsel and

the presentation of death penalty mitigating

[46] Sentencing and Punishment ^ Nature,
degree, or seriousness of other offense

evidence, tile appointment of an advocate

Defendant's prior murder conviction for death

to present evidence and argue against tlie

of 75-year-old victim who was his previous

imposition of a sentence overrides that

employer and tied up and left for dead in

defendant's constitutional right to control the

an abandoned well during a robbery was an

organization and content of his or her own

aggravating circumstance justifying imposition

defense during sentencing. U.S. Const. Amend.

of death penalty for defendant's subsequent

6; Neb. Const. art. 1, § II.

murder, via strangulation, of his talkative
cellmate who annoyed him. Neb. Rev. Stat. §

29-2523(l)(a).
[43| Seutencing and Punishment ^ Counsel
Sentencmg and Punishment ^ Reception of
evidence
In a death penalty case, a defendant's right to
waive counsel and present his or her own defense

[47] Sentencing and Punishment ^ Murder
Sentencing and Punishment ^ Nature,
degree, or seriousness of other offense

includes the right of the defendant to elect not to

The applicable statutory and nonstatutory

present additional evidence or argument during

mitigating circumstances did not approach or

the penalty proceedmgs. U.S. Const. Amend. 6;

exceed death penalty aggravating circumstance

Neb. Const. art. 1, § 11.

of prior murder of 75-year-old victim during a
robbery, for defendant who was convicted of
first-degree murder for his strangulation of his

[44] Sentencing and Punishment ©=3 Procedure
Sufficient safeguards existed in capital
sentencing proceeding to prevent arbitrary

talkative cellmate who annoyed him while he
was serving life sentence for prior murder. Neb.

Rev. Stat. § 29-2523(l)(a).

result for defendant who waived his right to
counsel and refused to introduce mitigating
or proportionality evidence or argument;
Legislature enacted safeguards to ensure fairness

[48] Sentencing and
Punishment ®=> Proportionality

and accuracy in the resulting sentence, and those

Supreme Court is required, upon appeal, to

safeguards applied regardless of the defense

determine the propriety of a death sentence by

strategy an individual defendant implemented.

conducting a proportionality review, comparing

U.S. Const. Amend. 6; Neb. Const. art. 1, § 11;

the aggravating and mitigating circumstances

Neb. Rev. Stat §§ 29-2521.01, 29-2522(3).

with those present in other cases in which a court
imposed the death penalty. Neb. Rev. Stat, §§

29-2521.01,29-2522(3).
[45] Sentencing and Punishment ^ Scope of
review
In reviewing a death sentence, the Supreme
Court considers whether the aggravating

[49] Sentencing and
Punishment ©= Pt'oportionality

circumstances justify imposition of a sentence of

The purpose of Supreme Court's proportionality

death and whether any mitigating circumstances

review of death sentence is to ensure tliat the

iTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

State v. Schroeder, 305 Neb. 527 (2020)
941 N,W.2d445
sentences imposed in the case are no greater

Death sentence was not disproportionate to

than those imposed in other cases with the same

penalty imposed in similar cases, for defendant

or similar ckcumstances. Neb, Rev. Stat. §§

who was convicted of fu'st-degree murder for

29-2521.01,29-2522(3).

strangling his talkative annoying cellmate while
serving a life sentence for prior murder in which
defendant threatened, beat, and robbed 75-year-

[50]

Sentencing and

old victim and threw him bound and alive into

Punishment ^ Proportionality

an abandoned well to die. Neb. Rev, Stat. §§

29-2521.01, 29-2522(3), 29-2523(l)(a).

A proportionality review of death sentence
does not require that a court "color match"
cases precisely. Neb. Rev. Stat. §§ 29-2521.01,

29-2522(3).

Sy>llabi<s by the Court
[51] Sentencing and
Punishment ^=? Proportionality
The question when conducting a proportionality
review in a death penalty case is simply whether
the cases being compared are sufficiently similar,
considering both the crime and the defendant, to
provide the court with a useful frame of reference
for evaluating the sentence in the instant case.

Neb. Rev. Stat. §§ 29-2521.01, 29-2522(3).

*527 1. Sentences: Death Penalty: Appeal and Error. In
a capital sentencing proceeding, the Nebraska Supreme Court
conducts an independent review of the record to determine if

the evidence is sufficient to support imposition of the death
penalty.

2. Sentences: Aggravating and Mitigating Circumstances:

Appeal and Error. When reviewing the sufficiency of the
evidence to sustain the trier of fact's finding of an aggravating
circumstance, the relevant question for the Nebraska Supreme

[52} Sentencing and Punishment <§==> Aggravating
circumstances in general
One aggravating circumstance may be sufficient

Court is whether, after viewing the evidence in the light most
favorable to the State, any rational trier of fact could have
found the essential elements of the aggravating circumstance
beyond a reasonable doubt.

for the imposition of the death penalty.
3. Sentences: Aggravating and Mitigating Circumstances:
Appeal and Error. A sentencing panel's determination of

[53] Sentencing and
Punishment ^ Proportionality

the existence or nonexistence of a mitigatmg circumstance is

subject to de novo review by the Nebraska Supreme Court.

In a proportionality review, the evaluation of

whether the death penalty should be imposed in

4. Sentences: Death Penalty: Aggravating and Mitigating

a specific case is not a mere counting process

Circumstances: Appeal and Error. In reviewing a sentence

of "X" number of aggravating circumstances

of death, the Nebraska Supreme Court conducts a de novo

and <1Y" number of mitigating circumstances

review of the record to determine whether tlie aggravating and

and, instead, asks whether the reviewed cases

mitigating circumstances support the imposition of the death

are sufficiently similar to provide a useful

penalty.

reference for that evaluation. Neb. Rev. Stat. §§

29-2521.01,29-2522(3).

5. Rules of Evidence. In proceedings where the Nebraska

Evidence Rules apply, the admissibility of evidence is
controlled by the Nebraska Evidence Rules; judicial
[54] Sentencing and Punishment <&" Murder
Sentencing and Punishment ^» Nature,

discretion is involved only when the rules make discretion a
factor in determining admissibility,

degree, or seriousness of other offense

WESTLAW © 2020 Thomson Renters. No daim to original U.S. Government Works.

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d 445
6. Constitutional Law: Statutes: Appeal and Error. The

Court wili not fault a sentencing panel for failing to discuss

constitutionality of a statute presents a question of law, which

a nonstatutory mitigating circumstance that it was. not

an appellate court independently reviews.

speciftcally asked to consider.

7. Sentences: Death Penalty: Homicide: Aggravating

15. Death Penalty: Aggravating and Mitigating

and Mitigating Circumstances: Appeal and Error. Under

Circumstances. During the consideration of statutory

Nebraska law, the death *528 penalty is imposed for a

mitigating factors in a death penalty case, the mere

conviction of murder in the first degree only in those instances

identification of a history of incarceration, without more,

when the aggravating circumstances existing in connection

is insufficient to allege unusual pressures or influences or

with the crime outweigh the mitigating circumstances.

establish extreme mental or emotional disturbance.

8. Trial: Rebuttal Evidence. Rebuttal evidence is confined to

16. Sentences: Homicide: Aggravating and Mitigating

new matters first introduced by the opposing party and limited

Circumstances: Judgments: Juries: Pres en ten ce Reports.

to that which explains, disproves, or counteracts the opposing

When an offender has been convicted of first degree murder

party's evidence.

and waives the right to a jury determination of an alleged
aggravating circumstance, ttie court must order a presentence

9. Sentences: Death Penalty; Aggravating and Mitigating

investigation of the offender and the panel must consider

Circumstances: Evidence. In a death penalty case, a

a written report of such investigation in its sentencing

sentencing panel iias the discretion to hear evidence to address

determination.

potential mitigating circumstances regardless of whether the
defendant presents evidence on that issue.

*529 17. Prcsentence Reports. A presentence investigation

and report shall include, when available, any submitted victim
10. Sentences: Evidence. A sentencing court has broad

statements and an analysis of the circumstances attending

discretion as to the source and type of evidence and

the commission of the crime and the offender's Iiistory of

information which may be used in determining the kind and

delinquency or criminality, physical and mental condition,

extent of the punishment to be imposed, and evidence may be

family situation and background, economic status, education,

presented as to any matter tliat the court deems relevant to the

occupation, and personal habits.

sentence.

18. Presentence Reports: Probation and Parole. A

11. Sentences: Death Penalty: Aggravating and Mitigating

presentence investigation and report may include any matters

Circumstances: Evidence. In a death penalty case, a

the probation officer deems relevant or the courl: directs to be

sentencing panel may permit the State to present evidence to

included.

contradict potential mitigators even though a defendant failed
to present affirmative evidence.

19. Constitutional Law: Criminal Law: Sentences: Right

12. Sentences: Death Penalty: Homicide. A sentencing

right to be represented by an attorney in all critical stages

order in a death penalty case must specify the factors the

of a criminal prosecution which can lead to a sentence of

sentencing panel relied upon in reaching its decision and

confinement.

to Counsel. An accused has a state and federal constitutional

focus on tlie individual circumstances of each homicide and
eacli defendant.

20. Right to Counsel: Waiver. A defendant may waive the

right to counsel so long as the waiver is made knowingly,
13. Constitutional Law: Sentences: Death Penalty:

voluntarily, and intelligently.

Aggravating and Mitigating Circumstances. The U,S.
Constitution does not require the sentencing judge or judges

21. Constitutional Law: Right to Counsel. The same

to make specific written findings in death penalty cases with

constitutional provisions that provide a defendant the right to

regard to nonstatutory mitigating factors.

counsel also guarantee the right of tlie accused to represent
himself or herself.

14. Sentences: Aggravating and Mitigating
Circumstances: Appeal and Error. The Nebraska Supreme

WRSTLAW © 2020 Thomson Reuters, No claim to original U.S. Government Works.

State v. Schroeder, 305 Neb. 527 (2020)
941 N,W.2d445
22. Attorney and Client. The right to self-representation

30. Criminal Law; Sentences: Death Penalty: Words and

plainly encompasses certain specific rights of the defendant

Phrases. A proportionality review in a death penalty case

to have his voice heard, including that the pro se defendant

looks at whether the sentence of death is excessive or

must be allowed to control the organization and content of his

disproportionate to the penalty imposed in similar cases,

own defense.

considering both the crime and the defendant. Proportionality
review is not constitutionally mandated.

23. Sentences: Death Penalty: Attorney and Client:
Aggravating and Mitigating Circumstances: Evidence:

31. Sentences: Death Penalty: Statutes: Appeal and Error.

Waiver. Control of the organization and content of a defense

The proportionality review in a death penalty case exists in

may include a waiver of the right to present mitigating

Nebraska by virtue of statutes which direct the Nebraska

evidence durmg sentencing in a death penalty case.

Supreme Court to conduct a proportionality review in each

appeal in which a death sentence is imposed.
24. Criminal Law: Sentences: Death Penalty: Appeal and
Error. Because a death sentence is different from any other

32. Sentences: Death Penalty. A court's proportionality

criminal penalty and no system based on human judgment is

review spans all previous cases in which a sentence of death is

infallible, the Nebraska Supreme Court has taken, and should

imposed and is not dependent on which cases are put forward

continue to take, the extra step to ensure fairness and accuracy

by the parties.

with the imposition of the death penalty.
33. Sentences: Death Penalty; Aggravating and Mitigating
25. Criminal Law: Statutes. Penal statutes are to be strictly

Circumstances: Judgments: Juries. Even when a jury

construed in favor of the defendant.

determines the existence of an aggravating circumstance, a

sentencing panel is required to put in writing its consideration
26. Sentences: Evidence: Presentence Reports. Even if the

of whether the determined aggravating circumstance justifies

State presents evidence in favor of a specific sentence and

the imposition of a sentence of death, whether mitigating

the defendant declines to present contrary evidence, a court

circumstances exist, and whether a sentence of death would be

receives and must consider independent information fi'om a

excessive or disproportionate to penalties imposed in similar

presentence investigation report.

cases.

27. Sentences: Death Penalty: Evidence: Presentence

34. Sentences: Death Penalty: Aggravating and Mitigating

Reports. In a death penalty case, a sentencing panel

Circumstances: Judgments; Juries. A sentencing panel's

is required to review a presentence investigation report

order imposing a sentence of death where a jury has

and determine whether it contradicts the State's evidence

determined the existence of an aggravating circumstance

of aggravating factors and whether any mitigating

must specifically refer to the aggravating and mitigating

circumstances exist, including specifically delineated

circumstances weighed in the determination of the panel.

statutory mitigators.
35. Sentences: Death Penalty: Statutes. Nebraska's capital

^530 28. Death Penalty: Aggravating and Mitigating

sentencing scheme provides additional statutory steps and

Circumstances: Proof. While the State must prove

considerations to ensure fairness and accuracy, and these

aggravating circumstances beyond a reasonable doubt in a

safeguards exist regardless of a defendant's strategy at the

death penalty case, there is no burden of proof with regard to

penalty phase.

mitigating circumstances.
36. Sentences: Death Penalty. Due to Nebraska's statutory

29. Sentences: Death Penalty: Aggravatmg and Mitigating

capital sentencing scheme, a defendant cannot"choose"the

Circumstances: Judgments. Once a sentencing pane! in

death penalty.

a death penalty case makes its determinations about the
existence of aggravating and mitigating circumstances, the

37. Courts: Sentences: Death Penalty^ A sentencing

panel is then required to undertake a proportionality review.

decision in a death penalty case rests with the court alone.

WESTLAW © 2020 Thomson Reuters. No claim to original U,S, Government Works.

State v. Schroeder, 305 Neb. 527 (2020)
941 N,W.2d445
38. Sentences; DcathPcnalty: Aggravating and Mitigating

aggravating circumstances justify imposition of a sentence

Circumstances: Evidence; Presentence Reports. In order

of death and whether any mitigating circumstances found to

to sentence a A531 defendant to death, the statutory

exist approach or exceed tlie weight given to the aggravating

scheme requires that a sentencing panel consider not only

circumstances.

evidence and argument presented by the parties but also

an independently compiled presentence investigation report

46. Sentences: Death Penalty: Aggravating and Mitigating

to determine whether the alleged aggravating circumstance

Circumstances: Appeal and Error. The Nebraska Supreme

exists, determine whether any mitigating factors are present

Court is required, upon appeal, to determine the propriety

which would weigh against tlie imposition of the death

of a death sentence by conductmg a proportionality review,

penalty, and conduct a proportionality review weighing the

comparing the aggravating and mitigating circumstances with

aggravating and mitigating factors and comparing the facts to

those present in other cases in which a courE imposed the death

previous cases where the death penalty was imposed.

penalty.

39. Trial: Parties. A defendant is entitied to present a defense

47. Sentences: Death Penalty. The purpose of a

and is guaranteed the right to clioose the objectives for that

proportionality review in a death penalty case is to ensure

defense.

that tile sentences imposed in a case are ft532 no greater

than those imposed in other cases with the same or similar
40. Attorney and Client. A self-represented defendant must

circumstances,

be allowed to conh'ot the organization and content of his own
defense.

48. Sentences: Death Penalty: Aggravating and Mitigating
Circumstances: Appeal and Error. The Nebraska Supreme

41. Constitutional Law: Right to Counsel: Sentences:

Court's proportionality review looks only to other cases in

Aggravating and Mitigating Circumstances: Evidence:

which the death penalty has been imposed and requires

Waiver. When a defendant waives counsel and the

the court to compare the aggravating and mitigating

presentation of mitigating evidence, the appointment of an

circumstances of the case on appeal with those present in

advocate to present evidence and argue against the imposition

those other cases.

of a sentence overrides that defendant's constitutional right to
control the organization and content of his or her own defense

49. Death Penalty. A proportionality review in a death

during sentencing.

penalty case does not require that a court "color match" cases
precisely.

42. Right to Counsel: Waiver. A criminal defendant has the
right to waive counsel and present his or her own defense.

50. Sentences: Death Penalty. The question when
conducting a proportionality review in a death penalty case

43. Sentences: Death Penalty: Right to Counsel: Evidence:

is simply whether the cases being compared are sufficiently

Waiver. In a death penalty case, a defendant's right to waive

similar, considermg both the crime and the defendant, to

counsel and present his or her own defense includes the right

provide the court with a useful frame of reference for

of the defendant to elect not to present additional evidence or

evaluating the sentence in the instant case.

argument during the penalty proceedings.
51. Sentences: Death Penalty: Aggravating and Mitigating
44. Sentences: Death Penalty: Aggravating and Mitigating

Circumstances. One aggravating circumstance may be

Circumstances: Appeal and Error. In reviewing a sentence

sufficient under Nebraska's statutory system for the

of death, the Nebraska Supreme Court conducts a de novo

imposition of the death penalty.

review oftlie record to determine whether the aggravatmg and

mitigating circumstances support the imposition of the death
penalty.

52. Sentences: Death Penalty: Aggravating and Mitigating
Circumstances. In a proportionality review, the evaluation of

whether the death penalty should be imposed in a specific case
45. Sentences: Death Penalty: Aggravating and Mitigating

is not a mere counting process of "X" number of aggravating

Circumstances: Appeal and Error. In reviewing a sentence

circumstances and "Y" number of mitigating circumstances

of death, the Nebraska Supreme Court considers whether the

WRSTLAW © 2020 Thomson Reuters. No daim to original U.S, Government Works.

10

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
and, instead, asks whether tlie reviewed cases are sufficiently
similar to provide a useful reference for that evaluation.

BACKGROUND

**450 Appeal from the District Court for Johnson County:

FACTUAL BACKGROUND

VICKY L. JOHNSON, Judge. Affirmed.
At the time of the events leading to Schroeder's instant
Attorneys and Law Firms
Sarah P. Newell, of Nebraska Commission on Public
Advocacy, for appellant.
Douglas J. Peterson, Attorney General, and James D. Smith,

conviction, Schroeder was incarcerated at Tecumseh State

Correctional Institution (TSCI). This incarceration was
pursuant to a 2007 conviction for the first degree murder of

Kemieth Albers in wliich Schroeder was sentenced to life
imprisonment.

Solicitor General, for appellee.

In March 2017, while housed in a cell intended for one
Christopher L. Eickholt, ofEickholt Law, L.L.C., Cassandra

occupant, Schroeder was asked if he would consider a

Stubbs, of American Civil Liberties Union Foundation, and

roommate due to overcrowding, Schroeder agreed but wanted

Amy A. Miller, ofACLU of Nebraska Foundation, for amicus

a roommate with whom he was compatible. Prison officials

curiae ACLU and ACLU of Nebraska,

assigned Berry **456 to Scliroeder'scell. Sclu-oederdidnot

consider Berry (.0 be compatible with him and told prison
Heavican, CJ., Miller-Lerman, Cassel, Stacy, Funke, and

officials that he did not want Berry as a cellmate. Schroeder

Papik, JJ., and Moore, Chief Judge,

did not know *534 Berry personally before the assignment

Opinion
Funke, J.

but knew of Beny as " (a loudmouth, a punk.' " Berry

was 22 years old and convicted of second degree forgery
and a confined person violation. Berry was due for release

approximately 2 weeks after his assignment to Schroeder's
*M55 *533 Patrick W, Schroeder appeals his sentence

cell.

of death for first degree murder of Terry Berry, Jr. This
is a mandatory direct appeal pursuant to Neb. Rev. Stat

Schroeder had described Berry as a constant talker with

§ 29-2525 (Cum. Supp. 2018) and article I, § 23, of the

extremely poor hygiene. During their shared confinement,

Nebraska Constitution. Sclu'oeder waived counsel, pled guilty

Schroeder would urge Berry to be quieter and clean up

without a plea agreement, waived the right to a jury on the

after himself. Schroeder alleged that he had told prison staff

issue of aggravating factors, declined to present evidence of

that placing Berry with him would be an unworkable, bad

aggravating or mitigating factors, and declined to cooperate

arrangement. Schroeder described that prison staff who came

for tlie preparation of the presentence investigation report.

by his cell would acknowledge the poor fit and even joke that
it was surprising Schroeder had not killed Ben'y yet. By April

On appeal, Schroeder was appointed counsel and now

13, 2017, Schroeder decided to himself that" '[sjomething

contends thai. the sentencing panel erred in allowing the

was gonna happen' " if Berry was not moved.

State to introduce evidence to refute unpresented mitigating

evidence, failing to consider and weigh mitigating evidence

On April 15, 2017, Berry was watching "UFC" on television

from the presentence investigation report, failing to request

in the cell and, as Schroeder explained, Berry " 'would not

documentation from the Department of Correctional Services

shut up.' " Schroeder instmcted Berry to move his chair to

(DCS) ofSchroeder's time in custody for mitigation purposes,

face the television with his back to Schroeder. Schroeder

sentencing Sclu'oeder to death with insufficient safeguards

proceeded to put Beny in a chokehold and locked his hands.

to prevent arbitrary results, and finding Schroeder should be

He continued to choke Berry for about 5 minutes until his

sentenced to death after balancing the aggravating evidence

arms got tired and then took a nearby towel, wrapped it

and mitigating evidence. For the reasons set forth herein, we

around Eien-y's neck, and continued to choke him for about

affirm.

5 more minutes. At that point, Schroeder let up on the

towel, believing BeiTy was dead. Schroeder claimed he then
tried to push the call button in his cell to alert staff to
Berry's condition. Around 30 minutes later, Schroeder alerted

WBSTLAW © 2020 Thomson Renters, No claim to original U.S. Government Works.

11

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d 445
a passing guard that Berry was on the floor by asking," 'How

Schroeder was an infant. Schroeder's motlier and stepfather

do you deal with a dead body in a cell?' " The guard believed

raised him in his early years. Schroedcr described his

Schroeder was joking until Schroeder picked up and dropped

stepfather as an alcoholic. Schroeder's mother and stepfatlier

Berry's leg. Schroeder has stated that he summoned the guard

separated *536 when Scln-oeder was 9 years old, and

not for Berry's benefit, but because he wanted Berry's body

Schroeder moved with his mother to Kearney, Nebraska.

removed from the cell.

Schroeder has not had contact with his stepfather since he
was 12 years old. Schroeder has two older brothers but, at

Berry was transported to a medical facility. On April 19, 2017,

the time of the 2007 report, was not close to either of them.

Berry died, having been declared brain dead. A search of the

While Schroeder's biological father did take him in for a

cell revealed a torn "kite," a fonn inmates use to communicate

brief period of time when he was 12 years old, Schi-oeder

with prison staff, dated April 13, 2017, and located in *53S

was removed and sent to a juvenile facility because his father

the trash. The discarded kite stated that prison staff had to get

caught him smoking marijuana. Schroeder denied being

Berry out of the cell before he got hurt.

abused or neglected and described his childhood as " 'typical.'
" Schroeder has a history of "placement in foster care and
group home situations including a number of runaways."

PROCEDURAL BACKGROUND

At one point as a teenager, Schroeder was placed with his

grandparents for a period of time.

Pursuant to these events, Schroeder was charged in April 2017
with first degree murder and use of a weapon to commit

Schroeder was married in 1998 and has one child from that

a felony. Wilhin an information filed in June, the State

marriage, but the couple has since divorced. At the time of the

submitted a notice of aggravation alleging Schroeder had

2007 report, Schroeder described that the child was adopted

been convicted of another murder, been convicted of a crime

by his ex-wife's present husband and tliat Schroeder has no

involving the use or threat of violence to the person, or had

contact with the child. Schroeder reman-ied in 2003, and his

a substantial prior history of serious assaultive or terrorizing

wife had three children from prior relationships. However,

criminal activity.' Schroeder was appointed counsel and

entered a plea of not guilty.
A hearing was held following Schroeder's subsequent request
to dismiss counsel and represent himself. The court granted
Schroeder's motion and discharged his counsel but also
appointed that same counsel to act in a standby role,

Representing himself, Schroeder withdrew a pending motion
to quash and requested leave to withdraw his prior plea of
not guilty. The court granted Schroeder leave to withdraw his
prior plea and rearraigned him. Thereafter, Schroeder pled

guilty to both counts and the com'E: found him guilty of those
charges beyond a reasonable doubt,

Sclu-oeder said in the 2007 report that while the couple \\'as
then together, he expected tiie situation to change under the
circumstances.

Tlie presentence investigation report provides that Schroeder
has an eighth grade education. Before he was incarcerated

in 2007, he had been employed in various farmwork and
construction jobs.

Schroeder reported that he first used alcohol when he was
13 years old and that lie experimented with marijuana
and cocaine when he was 15 years old. Schroeder also

admitted lie had used methamphetamine on a daily basis
for approximately 3 to 4 months, with tlie last use in
2003. While Schroeder denied receiving treatment, previous
prison records indicated he was placed in substance abuse

•A*457 PRESENTENCE INVESTIGATION REPORT
Tlie court ordered a presentence investigation report.
Schroeder declined to answer questions or participate in its
preparation. However, the current report did attach the 2007
presentence investigation report from Schroeder's earlier
convictions, which supplies more background infomiation.

According to the report, Schroeder was born in June 1 977.

Schroeder's biological father abandoned his family when

programming in 1991. Schroeder asserted that from April
2005 until his 2006 an'est, he was <( 'hooked on opiates' "

and was taking between 500 and 800 pills per month, some of
which were prescribed and some of which were not.

A537 The report explained tliat in 1985, Schroeder was first
charged with criminal mischief in juvenile court when he was
12 years old. Between 1987 and 1992, Schroeder was also
charged in juvenile court with aiding and abetting, escape,

WESTLAW © 2020 Thomson Reuters. No dafm to originai U.S. Government Works,

12

State v. Schroeder. 305 Neb. 527 (2020)
941 N.W.2d 445
theft, minor in possession of alcohol, and theft by exercising

doctor who performed the autopsy on Albers testified that the

control. He was ordered to serve probation as well as being

cause ofAIbers' death was blunt force trauma to his head.

placed in the Youth Rehabilitation and Treatment Center in
Schroeder declined to cross-examine the State's witnesses,

Kearney.

present rebuttal evidence, or argue against the State's claim

Since reaching the age of majority, in addition to his 2007

on the aggravation allegation.

convictions, Schroeder has been convicted of bank robbery,
forgery, escape, theft, assault, driving under suspension,

As to mitigating factors, Schroeder again declined to present

contributing to the delinquency of a child, driving under the

any evidence or argument. However, tlie State requested, and

influence, and issuing bad checks. He has been sentenced to

the court granted, permission to present evidence to negate

multiple terms of incarceration and terms of supervision. He

possible statutory mitigating circumstances. Here, the State

has had two A*458 of his terms of probation revoked and

presented evidence related to Berry's murder. Investigator

completed others unsatisfactorily.

Stacie Lundgren of the Nebraska State Patrol testified to
her interview with Schroeder where he described how and
why he killed Berry. Tliis interview was also described

SENTENCING PROCEEDINGS

in the presentence investigation report. The doctor who

performed the autopsy of Berry opined that the cause of

A scheduling hearing was held in August 2017. Schroeder

death was compressional asphyxia, a form of strangulation

waived his right to a jury for a (ietermination of tlie

where the structures of the neck are compressed. Cpl, Steve

aggravarion allegation. The court accepted this waiver after

Wilder explained that he was the correctional officer whom

making inquiry and finding, beyond a reasonable doubt, that

Schroeder flagged down to remove Berry after Scliroeder

Schroeder was competent and that his decision was made

had choked him. Cpl. Joseph Eppens testified he had moved

freely, voluntarily, knowingly, and intelligently. Thereafter, a

Schroeder from his cell following the incident. Eppens

three-judge panel was convened for a sentencing hearing on

explained that Schroeder told him he had previously informed

Schroeder's first degree murder conviction.

correctional staff he did not want a cellmate and that he joked,
"[Tjhis is what happens when we watch UPC." Finally, a

On the aggi'avation allegation, the State presented evidence of

TSCI employee testified that lie had notarized a writing in

Schroeder's 2007 conviction for Albers' murder. A sergeant

which Schroeder stated:

with the Nebraska State Patrol testified that he was the lead
investigator for that case. His testimony and a video of his
interview with Sckroeder described that Albers was a 75"
year-old farmer who had previously employed Schroeder.

Believing Albers had several thousand dollars in cash at his
residence, Schroeder had driven to Albers' liouse, rung the
doorbelt, entered the home, and awakened Albers. Schroeder

demanded money, threatened Albers, and hit him in the head
with a nightstick. Albers recognized Schroeder during this

AS39 My name is Patrick Schroeder. I'm 40 years old and

I killed Teny Berry on April 15[,] 2017[.] I killed Beny
because I wanted to, I knew I was going to kill him the
moment staff put him in my cell on April 10[,] 2017....
**459 I'm writing this statement to inform the court that
if given another life term I will kill again and we will be
right back in court doing this all over again.

*538 exchange and called him by name. Schroeder forced

Tlie court allowed the parties to make arguments. Schroeder

Albers to open a lockbox in which Schroeder believed the

declined. On the aggi'avatiou allegation, the State noted that

cash was kept, after which Schroeder took Albers outside

it provided a certified copy of Schroeder's previous murder

to an adjacent shop. At the shop, Albers turned toward

conviction and testimony concerning the events leading to

Schroeder, attempting to defend himself. Schroeder stnick

that conviction. As to mitigating circumstances, the State

Albers with the nightstick four or five times. With Albers on

stated, in part:

the floor, Schroeder dragged him out of the shop, tied him
up with battery cables, and placed him in the back ofAIbers'

[T]he State has offered evidence considering the statutory

pickup. Schroeder then drove Albers, who was still alive, to

mitigating circumstances, and the purpose of the evidence

an abandoned well on the property and dumped him into it.

was to affmnatively show that there were no statutory

Sclu'oeder explained to the sergeant tliat he had made the

niitigators that exist in this case.

decision to kill Albers a few days before the robbery. The

)TIAW © 2020 Thomson Reuters. No claim to original LLS. Government Works.

13

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W,2d445
The circumstances to be considered for mitigation include
whether or not the defendant acted under unusual pressure
or influence. I want to emphasize the word "unusual." His

justification^] for his actions are more of a nuisance than
they are unusual pressure.
It was displeasure or disagreement with a roommate and

how the roommate either talked too much or his hygiene
wasn't appropriate for... Schroeder's standards, and I don't
think that constitutes unusual pressure or influence.

The panel also addressed possible statutory mitigating
circumstances, noting, "The State was allowed to present
evidence that is probative of the nonexistence of statutory
or non-statutory mitigating circumstances, and did so[, and

Schroeder] was allowed to present evidence that is probative
of the existence of a statutory or non-statutory mitigating
circumstance[, but] chose not to ...." After analyzing each of

the mitigating grounds defined by § 29-2523(2) and giving
Schroeder the benefit of all inferences, the panel did not find
there were any statutoiy mitigating circumstances.

He's not under the ... dominion of another.,.. Schroeder

The pane! addressed various nonstatutory mitigating factors.

acted by himself, and I would say he probably was the boss

The panel found two of these factors existed and weighed in
**460 Schroeder's favor, including that Schroeder's guilty

in the cell.

plea spared Berry's family the trauma of a trial and the State
There is no undue influence of extreme mental or emotional

the expense of *541 a trial and that Schroeder's childhood

disturbance.... Schroeder was clear thinking, and by the

and family were dysfunctional. While finding three other

evidence that's been presented, his thought process started

factors did not exist, the panel noted the following: Schroeder

almost immediately upon ... Berry becoming his ceilmate.

is not well educated, but there is no evidence of a borderline

And in his written statement, that is really clear. And

intellect or diminished cognitive ability and he clearly knows

even in his interview with the investigator, he *S40

right from wrong; Schroeder takes medication for depression,

started thinking about this several days before it actually

but there is nothing to suggest that this depression contributed

happened.

to his actions and there is no evidence that his psychiatric

So he wasn't under any influence of extreme mental
or emotional disturbance. This was a thought process

deliberate and pretty cold blooded.

or psychological history rises to the level of a mitigating
circumstance; and the record does not suggest Scliroeder has

generally been a problem to officials during his confinement,
but this prior conduct does not rise to the level of a mitigating
factor. The panel acknowledged that Schroeder apparently
"expressly welcomes a death sentence" but explained this was

The evidence shows that he was the sole person committing

not considered and that "[i]t is the law, and not [Schroeder's]

this crime. There is no accomplice. And his participation is

wishes, that compels this Panel's ultimate conclusion."

the.,. death-causing participation.

The panel concluded that the two nonstatutory mitigating
The State would argue that ... Berry's habits as described by

circumstances were given little weight because these two

[Schroederdo] not make him a participant [in the incident].

factors did not approach or exceed the weight given to
the aggravating circumstance. Tlie panel then conducted a
proportionality review and found that a sentence of death is

[Schrocder] was a prisoner at the institution. No evidence
of impairment. TIie only evidence is that he's clearheaded,
he's thinking, and he plamied.

ORDER OF SENTENCE
In the panel's order of sentence, the panel found the State

not excessive or disproportionate to the penalty imposed in
similar cases. Based upon all of the above, the panel sentenced
Schroeder to death.

ASSIGNMENTS OF ERROR
Schroeder assigns, restated, that the sentencing court erred

proved the aggravation allegation beyond a reasonable doubt,

in (1) allowing the State to introduce evidence to rebut

citing Schroeder's previous conviction and the testimony

unprcsented mitigating evidence, (2) failing to consider and

describing the events leading to that conviction.

properly weigh mitigating evidence from the presentence
investigation report, (3) failing to request DCS documentation

WESTLAW © 2020 Thomson Reuters. No daim to onginal U.S. Government Works,

14

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d 445
ofSchroeder's time in custody for mitigation purposes, (4) the process for a sentencing panel to consider, find, and weigh
sentencing Schroeder to death with insufficient safeguards

the applicable aggravating and mitigating circumstances is

to prevent arbitrary results, and (5) sentencing Schroeder to

set out by Neb. Rev. Stat. § 29-2521(2) (Cum. Supp. 2018).

death after balancing the aggravating evidence and mitigating

Section 29-2521(2) states:

evidence and conducting the proportionality review.

In the sentencing determination

proceeding before a panel of

*542 STANDARD OF REVIEW

judges when the right to a
[1) In a capital sentencing proceeding, this court conducts an

jury determination of the alleged

mdependent review of the record to determine if the evidence

aggravating circumstances has been

is sufficient to support imposition of the death penalty.

waived, the panel shall ... hold a

hearing. At such hearing, evidence
may be presented as to any

[2] [3] [4] When reviewing the sufficiency of the evidence
to sustain the trier of fact's finding of an aggravating

matter that the presiding judge

circumstance, the relevant question for this court is whether,

deems relevant to sentence and

after viewiiig the evidence in the light most favorable to

shall include matters relating to

the State, any rational trier of fact could have found the

the aggravating cu'cumstances alleged

essential elements of the aggravating circumstance beyond a

iu the information, to any of the
mitigating circumstances set forth in

reasonable doubt. The sentencing panel's determination of

section 29-2523, and to sentence

tlie existence or nonexistence of a mitigating circumstance

excessiveness or disproportionality.

is subject to de uovo review by this court. In reviewing

The Nebraska Evidence Rules

a sentence of death, the Nebraska Supreme Court conducts

shall apply to evidence relating

a de novo review of the record to determine whether

to aggravating circumstances. Eacli

the aggravating and mitigating circumstances support the

aggravating circumstance shall be

imposition of the death penalty.

proved beyond a reasonable doubt.

Any evidence at the sentencing
[5] In proceedings where the Nebraska Evidence Rules

determination proceeding which the

apply, the admissibility of evidence is controlled by the

presiding judge deems to have

Nebraska **461 Evidence Rules; Judicial discretion is

probative value may be received. The

involved only when the rules make discretion a factor in

state and the defendant or his or her

determining admissibility.

counsel shall be permitted to present
argument for or against sentence of
death.

[6] The constitutionality of a statute presents a question of
law, which an appellate couil independently reviews.

The mitigating circumstances required to be considered under

ANALYSIS

§ 29-2521 and set forth in § 29-2523(2) include:
(a) The offender has no significant history of prior criminal

REBUTTAL OP MITIGATING CIRCUMSTANCES
[7] Under Nebraska law, the death penalty is imposed
for a conviction of murder in the first degree only in
those *S43 instances when the aggravating circumstances

existing in connection with the crime outweigh the mitigating

activity;
(b) The offender acted under unusual pressures or
influences or under the domination of another person;

(c) The crime was conmiitted while the offender was under
the influence of extreme mental or emotional disturbance;

circumslances. When, as here, a defendant waives the right
to ajury determination of alleged aggravating circumstances,

(d) The age of the defendant at the time oftlie crime;

WESTLAW © 2020 Thomson Reutes-s. No daim to original U.Q. Government Works.

15

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d 445
Schroeder argues the State's evidence purported to rebut the

*544 (e) The offender was an accomplice in the crime

statutory mitigating circumstances was actually offered to

committed by another person and his or her participation

support uncharged aggravating circumstances. Specifically,

was relatively minor;

Schroeder alleges the State's evidence was offered to

(f) The victim was a participant in Ehe defendant's conduct
or consented to the act; or

show the nonstatutory aggravating circumstance of future

dangerousness and "both prongs"12 of § 29-2523(l)(d),
which provides a statutory aggravator when a murder

(g) At the time of the crime, tiie capacity of the defendant

was especially heinous, atrocious, or cruel or manifested

to appreciate the wrongfulness of his or her conduct or to

exceptional depravity by ordinary standards of morality and

conform his or her conduct to the requirements of law was

intelligence.

impaked as a result of mental illness, mental defect, or
intoxication.

During the portion of the hearing devoted to mitigating
circumstances, tlie State's evidence related to Berry's murder.

[8] Schroeder initially claims that the sentencing panel erred
by allowing the State to present evidence to rebut the statutory

Lundgren testified about her interview witli Schroeder where
he described how and why he killed Berry. This same

mitigating circumstances even though Schroeder did not offer

interview was also described in the presentence investigation

any evidence on mitigation. In making this claim, Schroeder

report. The doctor who performed tiie autopsy on Berry

cites the proposition that rebuttal **462 evidence is confined

explained that Berry was killed by stranguiation. Wilder

to new matters first introduced by the opposing party and

explained the events surrounding his discovery of Berry's

limited to that which explains, disproves, or counteracts the

murder and Schroeder's reaction. Eppens explained that

opposing party's evidence.

Sclu-oeder told him he had previously Informed correctional
staff he did not want a cellmate and joked, while Eppens was

m [io] in]

[12] Contrary to Schroeder's assertion^oving him following the discovery of Berry's unconscious

under this assignment, a sentencing panel has the discretion to

body, "[Tjhis is what happens when we watch UFC."

hear evidence to address potential mitigating circumstances

Additionally, tlirough tlie testimony of a TSCI employee,

regardless of whether the defendant presents evidence

the State introduced a notarized writing in which Schroeder

on that issue. As quoted above, § 29-2521(2) allows a

confessed, explained his reasons for killing Berry, and stated

sentencing panel to receive "[ajny evidence" at the sentencing

lie would kill again if given another life term.

proceeding which the presiding judge deems to have
probative value relevant to the sentence including to any of
the statutory mitigating circumstances.lu A sentencing court
has broad discretion as to the source and type of evidence and

information wliicli may be used in determming the kind and
extent of the punishnent to be imposed, and evidence may
be presented as to any matter that tlie court deems relevant

to the sentence. n Although § 29-2521(2) dictates that the
Nebraska Rules of Evidence *545 apply when determining
the aggravating circumstances alleged by the information, it
contains no such requirement for consideration of mitigating
circumstances. Because a sentencing panel is required to

consider and weigh any mitigating circumstances in imposing
a sentence of death, the introduction of evidence of the
existence or nonexistence of these potential mitigators has
probative value to the sentence. Tims, the panel could permit

the State to present evidence to contradict potential mitigators
even though Schroeder failed to present affirmative evidence.

*546 Tliis evidence surrounding Berry's murder was
relevant to the statutory mitigating circumstances the

panel was required **463 to consider. The mitigating
circumstances listed under § 29-2523(2) involve, in part,
circumstances smrounding the underlying crime. These
circumstances include pressure or influences which may

have weighed on the defendant, potential influence on the
defendant of extreme mental or emotional disturbance at

the time of the offense, potential victim participation or
consent to the act, the defendant's capacity to appreciate

the wrongfulness of the act at the time of the offense, and
any mental illness, defect, or intoxication which may have
contributed to the offense. The State's evidence informed
the panel's analysis and was relevant to consideration of these

mitigators; and, as explained above, the panel had discretion
to hear this evidence.

Schroeder fails to allege dial the introduction of this evidence
influenced the panel's finding of the existence of the charged
aggravator—namely that Schroeder Jiad been convicted of

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d 445
another murder, been convicted of a crime involving the
use or threat of violence to the person, or had a substantial

A*464 115] [16] The U,S. Constitution does not require

prior history of serious assaultive or terrorizing criminal

the sentencing judge or judges to make specific written

activity. It is undisputed that Schroeder had previously

findings witli regard to nonstatutory mitigating factors.

been convicted of the murder of Albers and was incarcerated

In State v, Jenkins/ we addressed an assignment of a

for that crime at the time ofBen-y's killing. Schroeder does

sentencing panel failing to address nonstatutory mitigators

not challenge the presentation of evidence related to this

and explained that A548 we will not fault the panel forfailing

aggravating circumstance for failing to comply with the

to discuss a nonstatutory mitigating circumstance that it was

Nebraska Evidence Rules.

not specifically asked to consider.

The panel had discretion to hear any evidence relevant to

Additionally, the underlying facts Schroeder uses as support

sentencing, the panel was required to consider mitigating

for these nonstatutoiy mitigators are included in the

circumstances even though Schroeder failed to allege or

presentence investigation t-eporfc which the panel explained

present evidence in support of them, and the evidence

it considered in determining his sentence, The panel also

presented by the State was relevant to the panel's review of

specifically acknowledged many of these facts in its

these mitigators. As such, the panel did not err in allowing

sentencing order. On the allegation that the State had ulterior

the State to present evidence on tlie existence of mitigating

motives due to potential liability, the panel explained the

circumstances.

cell Scliroeder and Berry shared was intended for a single
inmate. Berry was set for release 2 weeks after moving in
with SchroedeF) Schroeder was serving a life sentence for

*547 WEIGHING OF MITIGATING CIRCUMSTANCES
[13] Schroeder next assigns the panel failed to properly

Albers' murder, and Schroeder warned that issues might

arise if he were incompatible with whoever was assigned as
his roommate, As to institutionalization, the panel described

consider mitigating mformation contained within the

Sclu-oeder's current incarceration for Albers' murder and

presentence investigation report and available fi'om the State s

noted his dysfunctional childhood and that "[h]e was involved

evidence. Schroeder claims proper consideration of this

in the juvenile court at a young age." Finally, on the use of

evidence would have led the panel to fmd additional statutory

money he attained from Albers' murder, tlie panel described

and nonstatutory mitigating circumstances.

that he took several thousand dollars from Aibers after leaving
him for dead and "drove around the area, paying off bills

[14] As explained, § 29-2521 requires a sentencing panel to

and making purchases." It is clear the panel considered and

consider mitigating circumstances. Neb. Rev. Stat. § 29-2522

weighed these facts even though it did not state a finding that

(Cum, Supp. 2018) describes the weighing of the aggravating

they led to the specific nonstatutory mitigating circumstances

and mitigating circumstances in imposmg a sentence of

Schroeder presently claims.

death and requires that the determination be in writing
and refer to the aggravating and mitigating circumstances

Because the panel was not required to make specific written

weighed. Accordingly, the sentencing order must specify

fmdings on the application ofnonstatutory mitigating factors,

the factors it relied upon in reaching its decision and focus

and taking into account the panel's consideration of the facts

on the individual circumstances of each homicide and each

Schroeder alleges support these factors, Schrocder's claims

defendant.16

We first address Schroeder's claims that the panel should
have applied additional nonstalutory mitigating evidence,
including (1) that the, State had uiterior motives for pursuing
the death penalty to avoid and detract from potential civil
liability for failing to protect Berry, (2) that Schroeder was
mstitutionalized from consistent incarceration, and (3) that

involving the nonstatutory mitigators do not demonstrate
reverstble error.

We next turn to Schroeder's claim that the panel failed
in its analysis of statutory mitigating circumstances. Of
the statutory mitigating factors, Schroeder claims the panel
should have determined the following applied: Schroeder
acted under unusual pressures or influences or under tlie

Schroeder had used money elicited from his murder ofAlbers

domination *549 of another person, Berry's murder

to provide clothes and food for his family.

was committed while Schroeder was under the influence of

WESTLAW © 2020 Thosnson Renters, No claim to original U.S. Government Works.

17

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
extreme mental or emotional disturbance, and Beny was a

he had not killed Berry yet, such statements do not imply that

21

Schroeder requested that Berry be moved or that they believed

participant in Schroeder's conduct or consented to the act.

[17] For Schroeder's claims that he was under unusual
pressures or influences and extreme mental or emotional

disturbance, he first alleges the panel failed to acknowledge
his efforts to get Berry removed as a cellmate and his

mcompatibility with Berry. He supports this allegation by
referencing the panel's determination that Schroeder had
calculated Berry's murder for several days and chose no

method of obviating his annoyance. Schroeder further quoted
the panel's explanation that finding the kite in the trash
**465 "suggests a premeditative and depraved mentality" in

that Schroeder "did not ask that [Berry] be moved" and in that
Schroeder "did not tell the guards that... Berry was in mortal
danger if he were not moved."

Schroeder contends this detennination and the findings
supporting It are contradicted by the evidence. Specifically,
Schroeder points to the summaries of his interviews with
Lundgren, included in the presentence investigation report,

wherein he told Lundgren that he had " 'told all of the
staff' " that he did not want Berry as a cellmate, that

lie told staff members he was not compatible with Berry
when they assigned him to Schroeder's cell, that a TSCI
caseworker had tried to get fine assignment switched prior
to Berry's moving in, and that corrections officers would

laugh at the arrangement and joke they were surprised
Schroeder had not killed Ben'y yet. Sclu-oeder also points to
Lundgren's case synopsis noting that the TSCI caseworker

Schroeder described in his interview explained that she did
have concerns prior to Berry's moving into the cell based on a
" 'gut feeling' " that the aiTangement would be " 'a bad Idea'
" but that she was unsuccessful in getting it switched.

A550 However, tEie panel's statements that Schroeder did

not ask for Berry to be moved and did not warn that Berry
was in mortal danger are not contradicted by Lundgren's
summaries. Lundgren's summary of Sclu'oeder's interview

only described Schroeder's assertions that he told staff prior
to Ben'y's moving in that he did not want Berry as a celtmate
and was incompatible with liim. Lundgren's summary did
not describe that Schroeder asserted lie continued these

complaints after the move was made and did not allege he

or had reason to believe that Berry was actually in mortal

danger. Similarly, while the TSCI caseworker attempted to
get Berry's assignment to Schroeder's cell switched prior to
his move, there is nothing indicating that she was doing so
at Schroeder's request or that her " 'gut feeling* " was based
upon a belief such an arrangement might lead to Berry's deatli.

The panel reviewed the presentence investigation report and
Lundgren's summaries prior to determining whether there
were mitigating circumstances. The paneFs findings that
Schroeder did not request Berry's removal from his cell

and did not warn officials of potential danger to Deny is
uncontradicted by the report. Instead, the report shows that

Schroeder acted with premeditation and depravity in that
Schroeder explained he had made up his mind to kill Berry
days before he did so and in that he made no real attempts to
avoid this result, even having made the decision to discard the
kite which could have helped avoid the killing.
Schroeder's explanations in his interview that he killed Berry
because he was unclean and amioying do not rise to the
level of accounts of unusual pressure or influence or extreme
*551 mental or emotional disturbance, Nothing in tlie record
indicates tliat Sch'oeder continually sought Berry's removal

from the cell or that any such requests were miheeded by TSCI
staff.

[18] Schroeder references the effect incarceration can
have on inmates in support **466 of his unusual
pressures or influences and extreme mental or emotional
disturbance claims. Schroeder cites to several articles, while

acknowledging he did not provide them to the court because
he did not present any evidence, which discuss the effects of
institutionaEization and incarceration in solitary confinement
on an inmate's mental health as well as articles and reports of

security and staffing issues at TSCI and DCS.
[19] We have previously addressed the effect incarceration
and, specifically, isolated confinement can have on

individuals. In Jenkins, we analyzed the application of a
nonstatutory mitigating factor of solitaiy confinement and
quoted the understanding that " ([y]ears on end of near-

made any actual requests for Berry to be moved. Moreover,

total isolation exact a temble price/ However, we also

there is nothing in Schroeder's description of his interactions

noted that prison officials must have discretion to decide

with TSCI officials where he indicated Berry was in mortal

that in some instances, temporary solitary confmement is

danger if they continued to share the cell. While Schroeder

a useful or necessary means to impose discipline and to

alleged corrections officers would joke they were surprised

protect prison employees and other inmates. Because of

WESTLAW © 2020 Thomson Reuters. No claim to original U,S. Government Works.

18

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d 445
the defendant's own extensive and violent actions in that
case, the prison officials needed to have some recourse

to deal with such an inmate, and we found that it was
reasonable m not rewarding such behavior by considering the

*553 DUTY TO REQUEST DOS
CHAPTER 83 CUSTODY REPORTS

resulting confinement as a mitigating factor. For the same

Schroeder claims the panel had a duty to request additional

reasons, the mere identification of a history of incarceration,

records of Schroeder's incarceration from DCS. These

without more, is insufficient to allege imusual pressures or

records are required to be kept by DCS under Neb.

influences or establish extreme mental or emotional *S52

Rev. Stat. § 83-178 (Reissue 2014) and include records

disturbance. Schroeder's incarceration was due to his own

concerning Schroederls background, conduct, associations,

actions, including, most recently, his murder ofAibers.

and family relationships; records regarding Schroeder's
"Central Monitoring," which may be relevant to the

Contrary to Schroeder s assertions and as discussed in our

propriety of Ills placement with Berry; and any medical or

analysis of Schroeder's claims of the nonstatutory mitigating

mental health records.

factors ofinstitufionalization and the State's alleged ulterior
motive to avoid possible litigation, the underlying facts

[21] When an offender has been convicted of first degree

of Schroeder's claims were acknowledged and weighed by

murder and waives the right to a jury determination of

the court. In its order, the panel acknowledged that the

an alleged aggravating circumstance, tlic court must order

cell Schroeder and Berry shared was intended for a single

a presentence investigation of the offender and tlie panel

inmate. Berry was set for release 2 weeks after moving in

must consider a written report of such investigation in its

with Schroeder, Schroeder was serving a life sentence for
Albers' murder, and Schroeder had a history of incarceration

including his histoiy within the juvenile court system and his
current sentence for AIbers' murder. The panel reasonably

found that on thek own, these facts and the reality of the
effect incarceration can have on individuals were insufficient
to establish tliat Schroeder acted under unusual pressures
or influences or was under extreme mental or emotional
disturbance. Under our de novo review, we reach the same
conclusion.

[20] Schroeder's remaining claim, that the panel erred m

sentencing determination.^' The presentence investigation

and report shall include, when available, any submitted victim
statements and an analysis of the circumstances attending

the commission of the crime and line offender's history of
delinquency or criminality, physical and mental condition,
family situation and background, economic status, education,
occupation, and personal habits. The investigation and

report may also include any other matters the probation officer
deems relevant or the court directs to be included.

[22] In tins case, the court ordered a presentence

failing to find Berry was a participant in Schroeder's conduct

investigation and report, a report was prepared, and the panel

or consented to the act, is without merit. Schroeder supports

considered it during its sentence determination. Schroeder

this proposition by noting, "Berry complied with Schroeder's

does not allege this report failed to analyze and present any of

request that tie turn the chair around and face away from

the areas required by § 29-2261(3). Instead, Schroeder claims

Schroeder after Schroeder expressed extreme aiuioyance
with his behavior." However, Berry's facing away from

the court had a duty to request the presentence investigation
report to include specific incarceration records. Schroeder

Schroeder does not indicate participation or consent to his

relies on *5S4 State v. Dunster for this claim that the

murder. Schroeder expressed frustration and requested Berry

panel should have requested additional documents.

to turn away from him, How Berry would have understood

this as Schroeder's asking for aid in his strangulation and

In that case, the defendant was sentenced to death after

not as a method to avoid conflict is unclear. Schi'oeder

pleading guilty to first degree murder. Prior to sentencing,

offers no further argument to **467 support this mitigating

the district court instructed the probation officer conducting

circumstance, and we agree with the panel's finding that there

the presentence investigation to include information in the

was no evidence establishing this mitigating factor.

possession of DCS as part of the report. "^ The court

explained that access to this information was restricted by
law and that it would not be released to the public except
upon written order. ~IJ On appeal, the defendant assigned

WESTLAW © 2020 Thomson Reuters. No ciaim to original US. Government Works.

19

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
the district court's consideration of this information, which

included confidential mental health information provided by

[23] [24] An accused has a state and federal constitutional

DCS, as reversible error.J^ However, we found the district

right to be represented by an attorney in all critical stages

court had given adequate notice to the defendant of its intent

of a criminal prosecution which can lead to a sentence of

to consider such evidence to satisfy his due process rights.

35

confinement. However, a defendant may waive tills right
to counsel A556 so long as the waiver is made knowingly,

**468 Additionally, when the bill of exceptions was

voluntarily, and intelligently.

completed in that case, the DCS records were not included.
As & result, we determined that in our de novo review, we

could request and consider the additional documents just as

[25] [26] [27] The same constitutional provisions that
provide a defendant the right to counsel also guarantee

the district court had requested and considered them.''" In

the right of the accused to represent himself or herself.

reaching this determination, we noted that our request of these

Tliis right to self-representation plainly encompasses certain

documents did not indicate in advance how we would rule

specific rights of the defendant to liave his voice heard,

on appeal but merely followed our statutory requirements for

including that the pro se defendant must be allowed to control

review and honored the intent of the Legislature to provide "

the organization and **469 content of his own defense.

<the most scrupulous standards of fairness and uniformity' "

We have previously explained that such control may include

in reviewing the imposition of a sentence of death,

a waiver of the right to present mitigating evidence during
sentencing in a death penalty case.

A555 Dunster neither explicitly nor implicitly required a
lower court to receive and review documents of a defendant's

Scbroeder does not challenge the validity of his waiver

prior incarceration. Instead, it only evaluated the process

of counsel for the penalty phase or his election not to

of a district court seeking to consider specific documents
during a sentencing proceeding and our ability to review

present mitigating evidence or proportionality argument.

Instead, Schroeder argues that the exercise of the right

the same information upon which the lower court relied.

to self-representation and, derived therefrom, the right to

Accordingly, Dunster did not add further requirements for

waive the presentation of evidence and argument conflicted

the preparation of a presentence investigation report under §

with the conslitutionai restrictions against cmel and unusual

29-2261(3).

pmiislunent. Specifically, Schroeder addresses the effect such
waivers have on the proportionality review by the sentencing

Because the district court complied with its duties under §

panel. To establish the cruelty and unusualness of such

29-2261(1) in requesting the presentence investigation and

punishment, Schroeder notes first that the proportionality

report) because the presentence report included the requisite

requirement under Neb. Rev. Stat. §§ 29-2521.01 to

analysis of the § 29-2261(3) elements, and because there is

29-2521.04 (Cum. Supp. 2018) only requires the sentencing

no requirement that a sentencing court must request access

panel to review those cases in which the death penalty was

to specific § 83-178 DCS records, the district court did not

imposed. Schroeder also asserts proportionality review is

en- by not requesting that the DCS records be included in the

further limited depending on whether jury determinations in

presentence investigation report.

the reviewed cases were waived because, *557 when they
are waived, a sentencing panel is required to issue written
findings of fact as to any proven aggravating circumstances,

SUFFICIENCY OF SAFEGUARDS TO
PJR.EVENT ARBITRARY RESULTS

but when there is no waiver, the jury does not issue such
analysis. Sclu-oeder argues that when a defendant waives
counsel and refuses to meaningfully participate, the record

Schroeder claims Nebraska's death penalty is

on which the panel makes its proportionality determination

unconstitutional as applied to him under tlie 8th and 14th

is limited to what it requests and the State presents, which

Amendments to the U.S. Constitution and article I, §§ 3, 9,

has the potential to be limited and biased in favor of the

and 15, of the Nebraska Constitution. Schi-oeder argues that

imposition of a death sentence.

insufficient safeguards exist to prevent arbitrary results when,
as here, a defendant waives his right to counsel and refuses to
introduce mitigating or proportionaiity evidence or argument.

[28] [29] Because a death sentence is different from any
other criminal penalty and no system based on human

WKSTLAW © 2020 Thomson Reuters. No ciaim to original U.S. Government Works,

20

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
judgment is infallible, we have taken, and should continue to

Schroeder takes issue with proportionality review requiring a

take, the extra step to ensure fairness and accuracy with the

panel to compare only those cases in which the death penalty

imposition of the death penalty. Taking this into account,

was imposed. Instead, Schroeder argues the statutory

the Legislature has enacted a statutory scheme to provide

s'cheme explicitly requires review of all homicide cases

additional safeguards, and in interpreting these statutes,

regardless of the resulting sentence.

we have followed the fundamental principle of statutory
construction that penal statutes are to be strictly construed in

47
favor of the defendant.'
[30] Part of this statutory scheme, as explained, requires
a court to order a presentence investigation report.*"0 The

*559 It is unclear how Schroeder is arguing this fits under
his assignment alleging unconstitutionality in the interplay of
his waiver of counsel and election not to present evidence
or argument with Nebraska's capital sentencing scheme. The
introduction of fimher evidence or whether or not Schroeder
was represented by counsel does not affect wliat previous

sentencing panel must consider this report in reaching its

cases the panel was required to consider. In any case,

sentence. Thus, contrary to Schroeder's argument, even if the

we decline Schroeder's invitation to overrule our decision

State presents evidence in favor of a specific sentence and
the defendant declines to present contrary evidence, the court

receives and must consider independent information from the
report.

[31] [32] [33] In a death penalty case, the sentencing
panel is required to review this report and determine whether
it contradicts the State's evidence of aggravating factors
and whether any mitigating circumstances exist, including

specifically *558 delineated statutoiy mitigators. While

in State v. Palmer51 which interpreted §§ 29-2521.01 to
29-2521.04 to only require review of previous cases in which
the death penalty was imposed.
Additionally, we are unconvinced by Schroeder's claim that
the proportionality review is unconstitutionally flawed due to
having less analysis of the reviewed cases in which a jury
determines the existence of the aggravating circumstance than
of the reviewed cases in which a sentencing panel makes
the determination. Again, it is unclear how Schroeder relates

**470 the State must prove the aggravating circumstances

this alleged flaw to this assignment. If Schroeder is claiming

beyond a reasonable doubt, there is no burden of proof

that waiver of counsel and lack of argument would prohibit

with regard to mitigating circumstances. Accordingly, the

the panel from taking into account that previous aggravation

panel's evaluation oftlie independently compiled presentence

determinations were decided by juries, this information would

investigation report and any evidence the defendant chooses

be apparent from the previous opinions and would be able

to introduce is under the less restrictive mitigation standard

to be considered by the panel independently of whether the

and provides another safeguard to ensure fairness and

defendant or an advocate explained such difference to the

accuracy in a death penalty determination.

panel.

[34] [35] [36] Once the panel makes its determinations **471 [37] Moreover, even when a jui'y determines the
about the existence of aggravating and mitigating

existence of an aggravating circumstance, a sentencing

circumstances, the panel is then required to undertake a

panel is required to put in writing its consideration of (I)

proportionality review. This review looks at whether the

whether the determined aggravating circumstance justifies

sentence of death is excessive or disproportionate to the

the imposition of a sentence of death, (2) whether mitigating

penalty imposed in similar cases, considering both the

circumstances exist, and (3) whether a sentence of death

crime and the defendant. Proportionality review is not
constitutionally mandated. It exists in Nebraska by virtue
of §§ 29-2521.01 to 29-2521.04, which direct this court to
conduct a proportionality review in each appeal in which
a death sentence is imposed. A court's proportionality
review spans all previous cases in which a sentence of death is
imposed and is not dependent on which cases are put forward

would be excessive or disproportionate to penalties imposed

in similar cases. This writing must specifically refer to
the aggravating and mitigating circumstances weighed in the
determination of the panel. *560 As such, the basis of
Schroeder's argument that cases where a jury determines the
existence of aggravating circumstances provide insufficient

information for comparison in a proportionality review is
without merit.

by the parties.

WCTLAW © 2020 Thomson Reuters. No daim to originai U.S. Government Works.

21

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d 445
138] [39] [40] Considering all of the above, Nebraska's [43] [44] A criminal defendant has the right to waive
capital sentencing scheme provides additional statutory steps
and considerations to ensure fairness and accuracy, and these
safeguards exist regardless of a defendant's strategy at the
penalty phase. Due to this statutory scheme, a defendant
cannot "choose" the death penalty. The sentencing decision

counsel and present his or her own defense.w In a death

penalty case, this includes the right of the defendant to
elect not to present additional evidence or argument during
tlie penalty proceedings. Even if a defendant makes such
waiver and election, the Legislature has enacted safeguards

rests with the court alone."" In order to exercise this

to ensure fairness and accuracy in the resulting sentence.

authority, the statutory scheme requires that a sentencing

As explained above, these safeguards apply regardless of

panel consider not only evidence and argument presented by

the defense strategy an individual defendant implements.

the parties but also an independently compiled presentence

Therefore, Scliroeder's assignment that Nebraska's capital

investigation report to determine whether the alleged

sentencing scheme is unconstitutional due to insufficient

aggravating circumstance exists, determine whether any

safeguards to prevent arbitraiy results when a defendant

mitigating factors are present which would weigh against the

waives counsel and elects not to present evidence or argument

imposition of (lie death penalty, and conduct a proportionality

fails.

review weighing tlie aggravating and mitigating factors and
comparing the facts to previous cases where the death penalty
was imposed. These considerations exist and are weighed

EXCESSIVENESS AND PROPORTIONALITY REVIEW

regardless of the evidence presented by the parties or their
arguments.

[45] In reviewing a sentence of death, we conduct a
de nova review of tlie record to determine whether the

[41] A defendant is entitled to present a defense and

*S62 aggravating and mitigating circumstances support the

is guaranteed the right to choose the objectives for

imposition of the death penalty."' In so doing, we consider

that defense. As previously stated, the self-represented

whether the aggravating circumstances justify imposition of a

defendant must be allowed to control the organization and

sentence of death and whether any mitigating circumstances

content of his own defense. However, Schroeder suggests

found to exist approach or exceed tlie weight given to the

that in a death penalty case, tlie substantial nature of the

aggravating circumstances.

proceedings requires an advocate in opposition to a sentence
of death irrespective of the defendant's chosen objective. To

[46] 147] We first note Schroeder does not contest the

this end, he suggests §§ 29-2519 to 29-2546 implicitly require

factual basis for the § 29"2523(l)(a) aggravation allegation

the appointment of a *561 guardian ad Utem to present

that Schroeder was convicted of AIbers> murder. It is

evidence and argument as to why tlie death penalty should not

undisputed that in 2006, Schroeder murdered Albers, who

be imposed.

was at the time Schroeder's 75-year-old previous employer. It

is also undisputed that Albers was robbed and that Schroeder
[42] This suggestion is similar to that addressed in
Dunster. The defendant therein had waived trial counsel
for the penalty stage and cliose not to present any

mitigating evidence. On appeal, he claimed the court should
have appointed "amicus counsel" to advocate against the

had made the decision to kill AIbers days before the robbery.
Schroeder threatened and beat AIbers, tied him up, threw

him in the back of a pickup, and dumped him in an
abandoned well, leaving him for dead. Based upon our de
novo review, we determine this murder conviction, which

imposition of the death penalty by presenting evidence and "

was proved beyond a reasonable doubt at the sentencing

fargu[ing] for life/ " which is identical to the role Schroeder

hearing, is sufficient as an aggravating circumstance under

now envisions for an appointed guardian ad litem. As
noted in Dunster, when a defendant waives counsel and

the presentation of mitigating evidence, the appointment of
an A*472 advocate to present evidence and argue against
the imposition of a sentence overrides that defendant's
constitutional right to control the organization and content of

§ 29-2523(l)(a) to justify the imposition of the death
penalty. In coordination with our analysis concerning the
panel's mitigating circumstance findings, we also agree with

the panel's determination that tlie applicable statutory and
nonstatutory circumstances apparent fi-om the record do not
approach or exceed the aggravating circumstance in this case.

his or her own defense during sentencing,

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

22

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
[48] [49] In addition, we are required, upon appeal, to
determine the propriety of a death sentence by conducting

killing, and possible sexual assault. In both cases, the defendants acted with violence toward the persons.

a proportionality review, comparing tlie aggravating and

mitigating circumstances with those present in other cases in

[50] [51] Additionally, while there were two underlying

which a court imposed the death penalty. The puipose of

murders in Dimster, this does not mean Dunster cannot be

this review is to ensure that the sentences imposed in tliis

used in a proportionalky review. A proportionality review

case are no greater than those imposed in other cases with tlie

does not require that a court "color match" cases precisely.

same or similar *563 circumstances. Our proportionality

It would be virtually impossible to find two murder cases

review looks only to other cases in which the death penalty

which are the same in all respects. Instead, the question

has been imposed and requires us to compare the aggravating

is simply whether the cases being compared are sufficiently

and mitigating circumstances of the case on A*473 appeal
71

provide tlie court with a useful frame of reference for

with those present in those other cases.

similar, considering both the crime and the defendant, to

evaluating the sentence in this case. As the factual
In this case, we have reviewed our relevant decisions on

connections show, Dunster is sufficiently similar for purposes

direct appeal from other cases in which the death penalty was
72

of evaluating proportionality.

Like the sentencing panel, we find Dunster particularly

distinguish his case *A474 from others cited by the

imposed.

[52] [53] Along the same lines, Schroeder attempts to

pertinent to our review. The defendant therein was

convicted of murdering his cellmate by strangling him with
an electrical cord.ftt The defendant had previously been
convicted of the earlier miu-der of a woman while attempting

to collect a debt from her husband, and he had confessed to
a different murder of another inmate while incarcerated for

sentencing panel and reviewed on appeal by noting that
the majority of those cases had multiple aggravating
factors. However, we have established that one aggravating
circumstance may be sufficient under our statutory system

for the imposition of the death penalty. In *565 our
proportionality review, the evaluation of whether the death
penalty should be imposed in a specific case is not a

the first murder. At the penalty phase, the State alleged

mere counting process of "X" number of aggravating

a single aggravatmg circumstance of § 29-2523(l)(a) and

circumstances and "Y" number of mitigating circumstances

presented evidence of the two previous killings.'" After the

and, instead, asks whether the reviewed cases are sufficiently

trial court sentenced the defendant to death, we affirmed.

similar to provide a useful reference for that evaluation.

Such factual basis is similar to that in the instant case. As did

Tims, even though other cases may involve additional

the defendant in Dunster^ Schroeder murdered his cellmate

or different aggravating circumstances, they may still be

by strangulation. Schroeder's previous murder ofAibers was

sufficiently similar to provide such reference.

also pursuant to a plan to take money from his victim.

[54] Having reviewed our previous cases which have
A'564 Schroeder attempts to differentiate bis case j&'om

affirmed the imposition of a death penalty and compared the

Dimster by emphasizing that while only one aggravating

aggravating and mitigating ckcumslances present in those

circumstance was alleged in Dunsfer, the allegation therein

cases, we are persuaded that the sentence imposed in this case

concerned two previous murders. Additionally, Schroeder

is not greater than those imposed in other cases with the same

argues tliose underlying murders were committed with more

or similar circumstances. Accordingly, we affirm Schroeder's

serious facts, including that there was suspected sexual assault

death sentence.

of one of the victims.

First, it is not evident that the underlying murders in Dimster

CONCLUSION

included any more or less serious facts surrounding their
execution. Schroeder threatened, beat, and robbed Atbers and

In consideration of all of the above, Schroeder's conviction

threw liim bound and alive into a well to die. The murders the

and sentence for first degree murder are affirmed.

defendant in Dunster committed involved binding, beating,
AFFIRMED.

WESTLAW © 2020 Thomson Reuters. No daim to originai U.S. Government Works,

23

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
All Citations
Fi-eudenberg, J., not participating.

305 Neb. 527, 941 N.W.2d 445

Footnotes
1 See Neb. Rev. Stat. § 29-2523(1)(a) (Cum. Supp. 2018).
2 State v. Jenkins, 303 Neb. 676, 931 N.W.2d 851 (2019).
3 State v. Torres, 283 Neb. 142, 812 N.W.2d 213 (2012).
4 Jenkins, supra note 2.

5 Id.
6 Torres, supra note 3.
7 Jenkins, supra note 2.

8 Neb. Rev. Stat § 29-2519 (Cum. Supp. 2018).
9 See State v. Sandoval, 280 Neb. 309, 788 N.W.2d 172 (2010). See, also, State v. Molina, 271 Neb. 488, 713 N.W.2d

412(2006).
10 See Jenklns, supra note 2.

11 id.
12 Brief for appellant at 28.

1 3 § 29-2523(2).
14 § 29-2523(1 )(a).
15 See §29-2521 (2).
16 State v. Dunster, 262 Neb. 329, 631 N.W.2d 879 (2001).
17 State v. Bjorkiund, 258 Neb. 432, 604 N.W.2d 169(2000), abrogated on other grounds, State v. Mate, 275 Neb. 1,745
N.W.2d 229 (2008). Accord State v. Reeves, 234 Neb. 71 1, 453 N.W.2d 359, cerf. grantee/ and judgment vacated 498
U.S.964, 111 S.Ct.425, 112 L. Ed. 2d 409 (1990).
18 Jenkins, supra note 2.

19 See § 29-2523(2)(b).
20 See § 29-2523(2)(c).
21 See § 29"2523(2)(f).
22 Jenkins, supra note 2, 303 Neb. at 727, 931 N.W.2d at 888, quoting Davis v. Ayata, 576 U.S. 257, 135 S. Ct. 2187, 192

L Ed. 2d 323 (2015) (Kennedy, J., concurring),
23 Jenkins, supra note 2.

24 Id.
25 Brief for appellant at 40.
26 id. at 42.
27 § 29-2521(2) and Neb. Rev. Stat § 29-2261(1} (Reissue 2016).

28 §29-2261(3).
29 id.
30 Dunster, supra note 16.

31
32
33
34

id.
!d.
id.
Id.

35 /cf.
36 id.
37 Id. at 372, 631 N.W.2dat913.
38 Dunster, supra note 16.

WESTLAW © 2020 Thomson Reuters. No daim to origina! U.S. Government Works.

24

State v. Schroeder, 305 Neb. 527 (2020)
941 N.W.2d445
39 See, U.S. Const. amends. VI and XIV; Neb. Const. art. t, § 11; Scott v. Illinois, 440 U.S. 367, 99 S, Ct. 1158, 591. Ed.

2d 383 (1979); Argersmger v. Hamlin, 407 U.S. 25, 92 S. Ct,2006,32 L. Ed. 2d 530 (1972); Jenkins, supra note 2; State
v. Wilson, 252 Neb. 637, 564 N.W.2d 241 (1997); State v. Dean, 246 Neb. 869, 523 N.W.2d 681 (1994), overruled on
other grounds, State v. Buriison, 255 Neb. 190, 583 N.W.2d 31 (1998).

40 Jenkins, supra note 2; State v. Hessler, 274 Neb. 478, 741 N.W.2d 406 (2007).
41 Faretta v. California, 422 U.S, 806, 95 S. Ct. 2525, 45 L Ed. 2d 562 (1975); Jenkins, supra note 2; Wilson, supra note
39; State v. Green, 238 Neb. 328, 470 N.W.2d 736 (1991).
42 McKaskle v. WJggins, 465 U.S. 168, 104 S. Ct. 944, 79 L. Ed. 2d 122 (1984); Dunster, supra note 16; Wilson, supra
note 39.
43 Dunster, supra note 16.

44 State v. Hochstein andAnderson, 262 Neb. 311, 632 N.W.2d 273 (2001).

45 id.
46 Neb. Rev. Stat. §§ 29-2519 to 29-2546 (Cum. Supp. 2018),
47 Hochstein and Anderson, supra note 44.

48 §§ 29-2261(1) and 29-2521(2).
49 §§29-2521 to 29-2523.
50 Torres, supra note 3.

51 State v. Veia, 279 Neb. 94, 777 N.W.2d 266 (2010); State v. Victor, 235 Neb. 770, 457 N.W.2d 431 (1990).

52 § 29-2522(3).
53 State v. Gates, 269 Neb. 443, 694 N.W,2d 124 (2005),

54 id.
55 See id.
56 See State v. Palmer, 224 Neb. 282, 399 N.W.2d 706 (1986), overruled on other grounds, State v. Chambers, 233 Neb,

235, 444 N.W.2d 667 (1989).
57 Id. See, also, State v. Gales, supra note 53.

58 § 29-2522.

59 id.
60 Dunster, supra note 16.
61 See Torres, supra note 3.
62 McCoy v. Louisiana, — U.S. —, 138 S. Ct. 1500, 200 L. Ed. 2d 821 (2018); Jenkins, supra note 2.
63 Dunster, supra note 16.

64 id.
65 Id. at 361, 631 N.W.2dat906.
66 See Dunster, supra note 16.
67 Torres, supra note 3.

68 Id.
69 id.
70 See id.

71 !d.
72 See, e.g., Jen/ms, supra note 2; Torres, supra note 3; State v. E/fe, 281 Neb. 571, 799 N.W.2d 267 (2011); Hessler,

supra note 40; Dunster, supra note 16; State v. Letter, 255 Neb. 456, 586 N.W.2d 591 (1998), modified on denial of
reheanng 255 Neb. 889, 587 N.W.2d 673 (1999); State v. Williams, 253 Neb, 111, 568 N.W.2d 246 (1997); State v.
Ryan, 233 Neb. 74, 444 N.W.2d 610 (1989); State v. Joubert, 224 Neb. 411, 399 N.W.2d 237 (1986); State v. Otey, 205
Neb. 90, 287 N.W.2d 36 (1979).
73 Dunster, supra note 16.

74 /c/.

75 /d.
76 Id.
77 !d.
78 0//s, supra note 72.

WESTLAW © 2020 Thomson Reuters. No claim to onginal U.S. Government Works. 25

State v. Schroeder, 305 Neb. 527 (2020)

941 N.W.2d 445

79 id.
80 Id.
81 Dunster, supra note 16.
82 See, EIHs, supra note 72; Dunster, supra note 16.

End of Document © 2020 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to origina! U.S. Government Works. 26

